    May 28, 2004




Financial Management
Antideficiency Act Investigation
of the Research, Development, Test
and Evaluation, Defense-Wide,
Appropriation Account
97 FY 1989/1990 0400
(D-2004-084)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ADA                   Antideficiency Act
DFAS                  Defense Finance and Accounting Service
FMR                   Financial Management Regulation
GAO                   General Accounting Office
IG DoD                Inspector General of the Department of Defense
RDT&E                 Research, Development, Testing and Evaluation
         Office of the Inspector General of the Department of Defense
Report No. D-2004-084                                                      May 28, 2004
  (Project No. D2003FM-0122)

              Antideficiency Act Investigation of the Research,
              Development, Test and Evaluation, Defense-Wide,
               Appropriation Account 97 FY 1989/1990 0400

                                Executive Summary

Who Should Read This Report and Why? DoD accounting officials responsible for
recording and adjusting DoD funds should read this report.

Background. In September 1995, the Research, Development, Test and Evaluation,
Defense-Wide, 0400 Appropriation Account for fiscal years 1989 and 1990 appeared to
have been overexpended by $62 million. The overexpenditure occurred because there
were no obligations to match Treasury disbursements. In 1996, the DoD Comptroller
established a special working group to research the unmatched disbursements. The
working group matched $64.2 million to other appropriations or sub-allocations
eliminating the negative balance. Instead of closing the account and canceling the funds,
DoD officials subsequently continued to adjust the fund balance and in August 2000
reported a negative balance of about $2.9 million.

In June 2002, the Comptroller staff started a preliminary investigation and concluded in
their February 2003 report that there was apparently not enough funding in the account to
support the expenditures. In a memorandum, “Formal Investigation of a Potential
Antideficiency Act (ADA) Violation,” March 19, 2003, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer requested that the Inspector General of the
Department of Defense initiate a formal investigation to determine whether an ADA
violation occurred in the Research, Development, Test and Evaluation, Defense-Wide,
0400 Appropriation Account for fiscal years 1989 and 1990.

Results. The lack of effective management of suspense accounts in this case obscured
evidence that might have substantiated an Antideficiency Act violation and defeated any
attempt at an effective investigation. At worst, such ineffective management may result
in masking fraud or Antideficiency Act Violations, or both. At best, it creates an
inability to determine that Government funds were properly expended. There may be
additional potential violations because much of the documentation is not available to
substantiate disbursements that were not recorded against appropriations, resulting in
inaccurate available balances.

On July 25, 2000, the Defense Finance and Accounting Service (DFAS) Denver posted
undistributed disbursements valued at approximately $3.3 million from the Air Force
budgetary clearing account (suspense account) to the Research, Development, Test and
Evaluation, Defense-Wide, 0400 Appropriation Account for fiscal years 1989 and 1990
(RDT&E Appropriation). DFAS Denver made the adjustment to clear old disbursements
in the suspense account from the cross-disbursing system. The Financial Management
Regulation required DFAS Denver to research the disbursements until the disbursements
were matched or a determination was made to discontinue the research. The Air Force
recorded expenditures and reduced obligations for approximately $2.2 million leaving
$1.1 million in discontinued research charged to the appropriation. The $1.1 million
charged to the appropriation is unsupported.

DFAS Denver had written off $3.3 million in unmatched disbursements using Air Force
limits assigned to the RDT&E Appropriation, based on an agreement between DFAS
Cleveland and DFAS Denver. Without the disbursement vouchers or disbursement
ledgers, DFAS Denver could not properly match the remaining $1.1 million in
disbursements to the RDT&E Appropriation, and DFAS Cleveland could not validate
with their ledgers the disbursements they made to the RDT&E appropriation under the
Air Force limit.1 After closed/expired account adjustments to the appropriation, the
account remained negative by approximately $1 million. As a result, a potential
Antideficiency Act violation had to be investigated.

DFAS Denver charged the disbursements against the appropriation without proper
accounting documents. Public Law 107-314 section 1009 grants authority to write-off
certain disbursements from suspense accounts without documentation matching them to
appropriations. DFAS Denver disbursements exceeded obligations at the Defense-Wide
appropriation level, but not at the Air Force limit level because the limits were
overstated. The Financial Management Regulation needs to be revised to strengthen
controls preventing improper write-offs and to include additional guidance for fund
holders in this situation. (See the Finding section of the report for the detailed
recommendations.)

Investigating officials determined improper postings were made to these accounts as
DFAS had not properly substantiated approximately $1.1 million of the $3.3 million in
adjustments against the appropriation. In the absence of such proof, the charges should
not have been made to that appropriation. Such charges were, therefore, invalid, and
cannot be considered in determining whether or not there was an actual negative balance
in the appropriation. The DoD Office of General Counsel subsequently determined
posting invalid obligations to an appropriation cannot result in a violation of the ADA.

Management Actions. DFAS Denver has initiated corrective actions by reversing
approximately $1.1 million in unsupported disbursements and applying for the Public
Law 107-314 section 1009 write-off. DFAS has also issued a standard operating
procedure applying internal controls for adjustments to canceled appropriation balances.

Management Comments. The Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer stated that an Antideficiency Act violation does
not result from posting invalid obligations to an appropriation. The Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer agreed to update volume 3 of
the Department of Defense Financial Management Regulation with additional guidance
to strengthen financial controls for cancelled appropriations. See the Finding section of
the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments. Management comments did
not fully meet the intent of the recommendations but may do so if revised policies are
sufficient to prevent recurrence and full and aggressive implementation occurs.


1
    The limit or subhead is a four-digit suffix to the U.S. Treasury account number (basic symbol). The limit
    is used to identify a subdivision of funds that restricts the amount or use of funds for a certain purpose, or
    identifies sub-elements within the account for management purposes.



                                                          ii
Table of Contents

Executive Summary                                                        i

Finding
     U.S. Treasury Symbol of the Appropriation: 97 FY 1989/1990 0400    1

Appendixes
     A. Scope and Methodology                                           11
         Prior Coverage                                                 11
     B. Closed Appropriation Policy                                     13
     C. Report Distribution                                             16

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   17
     Department of the Air Force                                        21
     Defense Finance and Accounting Service                             23
            U.S. Treasury Symbol of the
            Appropriation: 97 FY 1989/1990 0400
            On July 25, 2000, Defense Finance and Accounting Service (DFAS)
            Denver posted undistributed disbursements valued at approximately
            $3.3 million from the 57 F3875 0600 budgetary clearing account
            (suspense account) to the Research, Development, Test and Evaluation,
            Defense-Wide, 0400 Appropriation Account for fiscal years 1989 and
            1990 (RDT&E Appropriation). DFAS Denver personnel made the
            adjustment to clear aged disbursements from the suspense account. Even
            though funding authorization was available within the Air Force limit,
            there were insufficient funds available in the RDT&E Appropriation to
            cover the adjustment. Because DFAS Indianapolis had not distributed
            $263 million in disbursements to account holders, the Denver adjustment
            created a negative balance within the RDT&E Appropriation. After
            closed/expired account adjustments to the appropriation, the account was
            negative by approximately $1 million. A potential violation of the
            Antideficiency Act existed requiring investigation.

            Investigating officials determined improper postings were made to these
            accounts as DFAS had not properly substantiated approximately
            $1.1 million of the $3.3 million in adjustments against the appropriation.
            In the absence of such proof, the charges should not have been made to
            that appropriation. Such charges were, therefore, invalid, and cannot be
            considered in determining whether or not there was an actual negative
            balance in the appropriation. The DoD Office of General Counsel
            subsequently determined posting invalid obligations to an appropriation
            cannot result in a violation of the ADA. See Appendix A for the scope
            and methodology of our investigation. See Appendix B for more
            information on closed appropriation policy.


Amount of Potential Violation
     The fund balance with Treasury was a negative $1,059,303.06. After the net
     reversal of unsupportable disbursements and FY 2004 activity to date, the ending
     balance is $174,316.


Date Potential Violation Occurred
     On July 25, 2000, DFAS Denver posted undistributed disbursements valued at
     approximately $3.3 million from the 57 F3875 0600 suspense account to the
     97 FY 1989/1990 0400 appropriation, which created a $2.9 million negative
     balance.




                                         1
Account Activity
     The negative balance was reported on a Fund Balance with Treasury Statement
     (TFS Form 6653) for the month of August 2000. After the investigation and
     corrective actions, the balance in the appropriation should be approximately
     $0.174 million.

                          Defense-Wide RDT&E Appropriation
                                     (Dollars in thousands)




     Beginning Balance July 2000                $ 559
                      Net Disbursements            (81)           DFAS Denver

                      Net Disbursements            (87)         DFAS Indianapolis

                      Net Disbursements        (3,320)            DFAS Denver

     Closing Balance July 2000                ($2,929)
     Net Transactions September 2000             1,870            DFAS Centers
     – September 2003

     Closing Balance FY 2003                   (1,059)

     Net Reversal of Unsupportable               1,166            DFAS Denver
     Disbursements

     FY 2004 Net Transactions to date                67           DFAS Denver

     Ending Balance                               $174


Effect on Next Higher Level of Funding
     The Appropriation level is the highest level of funding.


Causes and Circumstances Surrounding the Potential
  Violation
     In September 1995, the RDT&E Appropriation appeared to be overexpended by
     $62 million. The negative balance occurred because Treasury disbursements
     could not be matched to fund holder obligations. In 1996, the Under Secretary of


                                          2
           Defense (Comptroller)/Chief Financial Officer established a special working
           group to research the unmatched disbursements. The working group matched
           $64.2 million to other appropriations or limits, eliminating the negative balance.
           Then, instead of closing the account as provided by Public Law 101-510, DoD
           officials continued to adjust the fund balance and, in August 2000, reported a
           negative balance of about $2.9 million.

           Use of Closed Appropriations. In 1990, Congress changed the law governing
           the use of appropriation accounts. Public Law 101-510, “National Defense
           Authorization Act for Fiscal Year 1991,” November 1990, amended title 31,
           United States Code, sections 1551-1557 (31 U.S.C. 1551-1557), and changed the
           procedures for closing appropriation accounts. The act specifies that 5 years after
           the expiration of a fixed-term appropriation, the appropriation is closed and all
           remaining balances canceled. A closed appropriation is “ . . . not available for
           obligation or expenditure for any purpose.”

           Unmatched Disbursements. The General Accounting Office (GAO) has stated
           that DoD has a long-standing and well-documented problem with accounting for
           and recording obligations and the corresponding disbursements. In August 1997,
           the Department had approximately $8.2 billion in unmatched disbursements and
           negative unliquidated obligations. The DoD Financial Management Improvement
           Plan (January 2001) states that some payments require additional time and
           research to ensure the transactions are recorded correctly in DoD accounting
           records because the accounting systems are not fully integrated, and transactions
           often require manual input. In fact, the DoD collection and payment process was
           discussed in the Financial Management Improvement Plan (September 1999) as
           an impediment to auditable financial statements.

           Liquidating Disbursements for Closed Appropriations. The Comptroller
           General of the United States ruled on September 29, 1993, that under certain
           limited circumstances, the Department of the Treasury could restore unobligated
           or obligated appropriation account balances.1 Agencies could use the restored
           balances to record, as a payment from a closed appropriation, a disbursement
           made before cancellation of the appropriation. This is an accounting entry to
           reflect the liquidation of an obligation that was validly incurred and liquidated
           before cancellation.

           Prior to the July 25, 2000, adjustment, DFAS Denver rejected old, unmatched
           disbursements (chargebacks) from DFAS Cleveland on the grounds of missing
           documentation. In October 1999, DFAS Denver modified policy to accept these
           transactions unless the Denver accounting officer had documentation proving that
           the chargebacks belonged to another accountable activity.

           In a memorandum, “Clearing Aged Intransit Disbursements and Collections,”
           December 10, 1998, the Director of DFAS stated that accounting centers were
           reporting intransit transactions more than 360 days old. Intransit transactions, in
           general, include DD 1329 differences, missing and unidentifiable transactions,
           chargebacks, and suspense transactions. DFAS then began to evaluate the
           supporting documentation for the transactions and categorized them into two
1
    72 Comp. Gen. 343, B-251, 287 (September 29, 1993).



                                                    3
    groups. The first group was identifiable to an appropriation and the second group
    was not identifiable to an appropriation. It is not clear what group the
    chargebacks belonged to because DFAS Arlington did not maintain the records
    from the evaluation.

    DFAS lacked the authority to write off these chargebacks. The chargebacks were
    over-aged, unmatched disbursements without documentation. DFAS is permitted
    to liquidate unmatched disbursements to closed/expired appropriations when
    research identifies the proper account or obligation. Because DFAS could not
    support the write-off of $1,166,865.40, the adjustment to the RDT&E
    Appropriation was unauthorized. Public Law 107-314 Section 1009 grants
    authority to cancel certain undistributed disbursements when justified to the
    Secretary of Defense that documentation does not exist and that continued
    research is not in the interest of the United States.

    DFAS Indianapolis had not distributed $263 million in disbursements to
    Component fund holders. Before FY 2000, DFAS was not able to identify
    Treasury’s monthly balance at the limit level. DFAS recorded the Treasury Trial
    Balance only at the appropriation level. Because DFAS was unable to identify
    funding problems below the appropriation level, DFAS posted several millions of
    dollars in undistributed disbursements and collections at the appropriation level
    every month, without distributing them to the proper limits. As a result, DFAS
    Indianapolis allowed an overstatement for the limits in the RDT&E
    Appropriation. The system of administrative control prescribed by DoD
    Regulation 7000.14-R, “Financial Management Regulation,” (FMR) did not
    provide DFAS Indianapolis with adequate guidance to manage the
    undistributed/unallocated disbursements. Please refer to the System of
    Administrative Control section of the report.

    In April 2000, DFAS officials agreed to a special project to clear millions in
    chargebacks. Adjustments totaling $3.3 million created a $2.9 million negative
    balance in the appropriation. Under the agreement, DFAS Denver accepted the
    chargebacks and DFAS Cleveland agreed to take up future chargeback items
    through the Navy. Because of the agreement, DFAS Denver took the accounting
    responsibility of chargebacks from DFAS Cleveland.


System of Administrative Control
    The system of administrative control prescribed by FMR volume 3, “Budget
    Execution—Availability and Use of Budgetary Resources,” chapter 11,
    “Unmatched Disbursements, Negative Unliquidated Obligations, In-transit
    Disbursements, and Suspense Accounts,” January 31, 2001, was inadequate.
    Specifically the FMR did not provide adequate guidance when disbursements
    exceeded obligations at the appropriation level, but not at the limit level. Because
    funds in the appropriation were allocated to a number of limits, and disbursements
    exceeded obligations at the appropriation level but not at the limit level,
    corrective actions should be taken by the fund holder and the applicable




                                         4
           accounting office as appropriate in accordance with FMR section 110503.2
           However, the FMR does not explain what the corrective action should be or how
           it should be accomplished.

           FMR volume 14, “Administrative Control of Funds and Antideficiency Act
           Violations,” August 1, 1995, Appendix A, states that systems for the
           administrative control of funds should be designed so that divisions of funds are
           placed at the highest practical organizational level consistent with effective and
           efficient management. For this appropriation, DFAS Indianapolis was
           responsible for the closed appropriation accounting and, because disbursements
           exceeded obligations at the appropriation level but not at the fund holder’s level,
           DFAS Indianapolis was the most practical organizational level to make corrective
           actions. DFAS Indianapolis could have prevented the closed account adjustment
           by notifying DFAS Denver that a portion of the unmatched disbursements had
           been allocated to DFAS Denver customer limits and cancelled the Expired
           Authority.3 DFAS Indianapolis did not allocate the disbursements because the
           FMR does not provide guidance to do so. The table on the next page is from the
           “Preliminary Investigation Report of Potential Antideficiency Act Violation for
           the Research, Development, Test and Evaluation, Defense-Wide 1989/90
           Appropriation,” February 26, 2003, and illustrates disbursements exceeding
           obligations at the appropriation level, but not at the limit level, as of
           September 30, 1995.




2
    Section 110503 guidance was included in the 1996 edition of the regulation.
3
    Expired Authority comprises the unobligated balances and obligated but unliquidated balances remaining
    in an appropriation. These funds are no longer available for incurring new obligations.



                                                      5
                                  RDT&E Appropriation
                                 As of September 30, 1995
                                                          (Dollars in Thousands)
                                             Unliquidated       Unobligated         Expired
Limits                                       Obligations         Balances          Authority
Air Force                                            $4,156              $95         $4,251
Washington Headquarters Service                     (2,690)           48,254         45,564
Defense Advanced Research Projects                   16,622           48,530         65,152
  Agency
Ballistic Missile Defense Organization               21,081           20,746          41,827
Defense Special Weapons Agency                        4,348            1,197           5,545
Defense Information Systems Agency                    6,082              442           6,524
Defense Logistics Agency                              (219)              701             482
U.S. Uniformed Health Service                             0               30              30
Classified Agencies                                  20,301           12,078          32,379
Undistributed/Unallocated                         (263,835)                0       (263,835)
Total                                            ($194,154)        $132,073        ($62,081)


        The system of administrative control prescribed by FMR volume 3 was not
        properly implemented. Specifically, DoD officials did not limit the expenditure
        of funds to the amount currently available at the time of the expenditure, enforce
        those limitations, and ensure that all personnel involved in administrative control
        and use of available funds were knowledgeable of such limitations.

        The July 25, 2000, electronic transaction with the Treasury by DFAS for the
        purpose of adjusting a closed account was not appropriate. Section 1552(a),
        title 31 United States Code, provides that closed accounts are not available for
        obligation or expenditure for any purpose. The Comptroller General has noted
        the only exceptions to the law (72 Comp. Gen. 343). The decision cites cases
        supported by sufficient proof of “ . . . obvious clerical errors such as misplaced
        decimals, transposed digits or transcribing errors . . .” in order to “ . . . record
        disbursements made before cancellation of expired accounts.” DFAS did not
        provide proof to the Treasury to justify the proposed adjustment, and it appears
        that no such proof existed. In August 2000, Treasury agreed to process all closed
        account adjustments if DoD agreed to maintain the records.

        Inspector General of the Department of Defense (IG DoD) Report No. D-2003-
        133, September 15, 2003, recommended improvements to the approval process
        for closed account adjustments. Recommendations from that report have not been
        fully implemented.


                                             6
Component Coordination
            We briefed the Office of the Assistant Secretary of the Air Force for Financial
            Management; the Director for Accounting and Finance Policy and Analysis in the
            Office of the Under Secretary of Defense Comptroller/Chief Financial Officer;
            the Office of the Director for Accounting, Defense Finance and Accounting
            Service, Denver Service Center; and the Director for Indianapolis Operations,
            Defense Finance and Accounting Service.


Evaluation of Conflicting Facts or Circumstances
            Although the Air Force limits had sufficient funds to make the adjustment, the
            appropriation did not. DFAS Denver did not verify whether funds were available
            at the appropriation level to accomplish the write-off. DFAS Denver officials
            have stated that their processes to verify whether funds were available would not
            have detected a potential deficiency because there were sufficient funds in the
            Air Force limits. This condition occurred because DFAS had a large
            undistributed/unallocated disbursement balance (limit 9999) of approximately
            $263 million in the RDT&E Appropriation, and DFAS could not match it to the
            appropriate limits.4 DFAS did not centrally approve postings to the
            appropriation, or control the appropriation with an appropriation manager. As a
            result, the available funds in the limits were overstated.

            DoD officials improperly matched the disbursements to the RDT&E
            appropriation. DFAS Denver officials stated that the appropriations used to
            perform write-offs were the initial disbursement appropriations. FMR volume 3,
            chapter 11, section 1115(D) provides for clearing a suspense account by charging
            the predominant appropriation, whether it is correct or not, and then reversing the
            charge after the end of the fiscal year. As such, the initial disbursement having
            been charged to an appropriation is insufficient evidence that it was charged to
            the proper appropriation. Because the RDT&E Appropriation had insufficient
            funds, it was not available for a write-off of chargebacks without the obligating
            documents, receiving documents, disbursing vouchers, or disbursement ledgers.

            After the April 2000 agreement with DFAS Cleveland, DFAS Denver attempted
            to validate the chargebacks to Air Force obligations. DFAS Denver was required
            to research the disbursements until the disbursements were matched or to make a
            determination to discontinue the research. DFAS Denver provided records stating
            they had matched approximately $2.2 million of the $3.3 million to Air Force
            accounting stations.5 At that point, DFAS Denver informally decided further
            expenditure of resources was improbable and not cost-effective. In
            September 2000, DFAS Denver stated that the disbursements could not be
4
    Such research can take years. For instance, the Ballistic Missile Defense Agency 0400 special working
    group worked for 2 years to reconcile funding problems. The Deputy Secretary of Defense congratulated
    them on their corrective actions.
5
    Based on the information available, the Air Force recorded expenditures of $2.2 million and reduced
    obligations.



                                                       7
     matched to an accounting station and asked that they be centrally funded through
     the Air Force. DFAS Denver posted the remaining $1.1 million in chargebacks as
     write-offs over Air Force limits under the appropriation, and discontinued
     research. DFAS Denver could not properly match the chargebacks to the RDT&E
     appropriation disbursement vouchers or disbursement ledgers. The chargebacks
     represented original unmatched disbursements made by DFAS Cleveland. DFAS
     Cleveland could not validate with their disbursement ledgers the remaining
     $1,166,865.40 in disbursements DFAS Denver liquidated against the RDT&E
     Appropriation under the Air Force limit.

     DFAS Denver neither verified whether funds were available to write-off the
     chargebacks, nor retained documentation demonstrating that a proper chargeback
     existed for the RDT&E Appropriation.


Name and Title of Holder of the Funds Subdivision
     The Office of the Deputy Comptroller, Director for Investment is the fund holder
     for the RDT&E Appropriation. We did not evaluate fund holder performance
     because fund holder responsibilities were subdivided to DoD Components.


Lessons Learned
     The lack of effective management of suspense accounts in this case obscured
     evidence that might have substantiated an Antideficiency Act violation and
     defeated any attempt at an effective investigation. At worst, such ineffective
     management may result in masking fraud or Antideficiency Act Violations, or
     both. At best, it creates an inability to determine that Government funds were
     properly expended. There may be additional potential violations because much of
     the documentation is not available to substantiate disbursements that were not
     recorded against appropriations, resulting in inaccurate available balances.


Management Actions
     DFAS Denver has initiated corrective actions by reversing approximately
     $1.1 million in unsupported disbursements and applying for the Public Law 107-
     314 section 1009 write-off. The Office of the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer stated that DFAS has also issued a standard
     operating procedure applying internal controls for adjustments to canceled
     appropriation balances.




                                         8
Recommendations, Management Comments, and Evaluation
  Response
    Deleted and Renumbered Recommendations. As a result of the Office of the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer comments we
    deleted draft recommendation 1.a. because the Associate Deputy General Counsel
    determined that an Antideficiency Act violation did not occur. We renumbered
    the final recommendations accordingly.

    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

           a. Permanently close the appropriation and use current available
    funds to make future adjustments.

           b. Revise DoD Regulation 7000.14-R, “Financial Management
    Regulation,” volume 3, to provide guidance for maintenance of cancelled
    appropriations to fund holders that could prevent potential ADA violations
    when disbursements exceed obligations at the appropriation level, but not at
    the limit level.

    Office of the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer Comments. The Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer partially concurred with the
    recommendations stating that charging a current appropriation would not be
    appropriate for a disbursement made prior to the cancellation of the expired
    account. The Under Secretary of Defense (Comptroller)/Chief Financial Officer
    estimated that changes to the Financial Management Regulation will be
    completed in the first quarter FY2005.

    Evaluation Response. Comments by the Office of the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer were not fully responsive. The
    legal availability of this appropriation depends on the purpose, time, and amount
    statutes. The Office of the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer comments only address the time statute. In this instance, the
    disbursements made prior to account cancellation resided in a suspense account
    much longer than the 60 days permitted by the Financial Management Regulation,
    while documentation was being lost or destroyed, and were then improperly
    recorded in that account because closed account adjustment controls were
    inadequate. We doubt the department has sufficient records to support additional
    disbursements against the appropriation and sufficient controls to prevent
    improper adjustments. The Defense Finance and Accounting Service recorded
    the disbursements, but was unable to find and liquidate the obligations. Since the
    60-day window to clear suspense accounts has long since closed on any
    disbursements and the Defense Finance and Accounting Service was unable to
    determine that Government funds were properly expended; additional
    disbursements should not be posted against this appropriation regardless of when
    they occurred. Additional information supporting this recommendation is
    contained in IG DoD Report No. D-2003-133, “Controls Over DoD Closed
    Appropriations, ”September 15, 2003. The Office of the Under Secretary of


                                        9
           Defense (Comptroller)/Chief Financial Officer comments were not responsive to
           the intent of our recommendations. We request they reconsider and provide
           additional information or written guidance addressing these concerns in the
           revised Financial Management Regulation.

           2. We recommend that the Assistant Secretary of the Air Force, Financial
           Management and Comptroller assist the Defense Finance and Accounting
           Service in preparing the Public Law 107-314 Section 1009 suspense account
           package.

           Air Force Comments. The Air Force concurred with the recommendation,
           stating that the recommended action will be complete before expiration of the
           authority in September 2004.

           3. We recommend that the Director, Defense Finance and Accounting
           Service:

                  a. Reverse the unsupported chargeback to the Air Force budget
           clearing account and cancel the associated undistributed disbursement
           (uncharged chargeback) by satisfying the provisions of Public Law 107-314
           section 1009.6

                  b. Allocate all undistributed disbursements to fund holders of DoD
           closed fixed-term appropriations at statutory time of closing or provide
           alternate procedures that will provide positive assurance against future
           potential violations.

           Defense Finance and Accounting Service Comments. The Director, Defense
           Finance and Accounting Service concurred with the recommendations stating that
           once general counsel provides guidance, the Defense Finance and Accounting
           Service will allocate the undistributed disbursements of expired, but not yet
           closed appropriations or develop alternate procedures to provide positive
           assurance against future potential violations. Comments by the Director of
           Accounting for the Defense Finance and Accounting Service were responsive.
           The Defense Finance and Accounting Service estimated that the Public Law 107-
           314 Section 1009 write-off package and the proposed guidance with the general
           counsel opinion on the undistributed disbursements would be completed by
           November 30, 2004, and August 31, 2004, respectively.




6
    The authority granted in Public Law 107-314 Section 1009 expires on December 2, 2004.



                                                    10
Appendix A. Scope and Methodology
    In a memorandum, “Formal Investigation of a Potential Antideficiency Act
    (ADA) Violation,” March 19, 2003, the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer requested that the IG DoD initiate a formal
    investigation to determine if a violation of the Antideficiency Act occurred in the
    RDT&E Appropriation. The Comptroller staff conducted a preliminary
    investigation and concluded there was apparently not enough funding in the
    appropriation to support the expenditures.

    We reviewed the fund balance with treasury, collected vouchers, reviewed
    adjustments to the appropriation, and spoke with DFAS Officials. We reviewed
    adjustments associated with the over expenditure of funds in the Treasury
    Appropriation Fund Symbol and reviewed contract reconciliation activities to
    identify additional Potential Antideficiency Act Violations. The investigation
    was conducted in accordance with DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 14, “Administrative Control of Funds and
    Antideficiency Act Violations,” April 8, 2003, from May 2003 to January 2004.

    Our objective was to determine whether an Antideficiency Act violation occurred
    within the RDT&E Appropriation. Our scope was limited in that it was not
    possible to identify all individuals who bear responsibility for the accounting
    errors or unmatched disbursements associated with the appropriation, just as it
    was not possible to identify all the errors or unsupported adjustments recorded
    against the account since 1989. We assumed that the $263 million in
    undistributed/unallocated disbursements could not be reconciled for this
    investigation because DoD already spent time and effort to reconcile the RDT&E
    Appropriation. We also relied on the “Preliminary Investigation Report of
    Potential Antideficiency Act Violation for the Research, Development, Test and
    Evaluation, Defense-Wide 1989/90 Appropriation,” February 26,2003, provided
    by the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer without verifying all the facts in the report. In addition, we did not review
    the management control program.

    Use of Computer-Processed Data. We did not test system controls for the use
    of computer-processed data used to report on the balance of the appropriation or
    to process closed account appropriation adjustments. However, the data, when
    reviewed in context with other available evidence, validate the opinions,
    conclusions, and recommendations in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Financial Management high-risk area.


Prior Coverage
    During the last 5 years, the General Accounting Office (GAO) and the Inspector
    General of the Department of Defense (IG DoD) have issued three reports


                                         11
      discussing DoD Appropriations. Unrestricted GAO reports can be accessed over
      the Internet at http://www.gao.gov. Unrestricted IG DoD reports can be accessed
      at http://www.dodig.osd.mil/audit/reports.

GAO
      GAO-02-747, “Cancelled DoD Appropriations: Improvements Made but More
      Corrective Actions are Needed,” July 2002

      GAO-01-697, “Canceled DoD Appropriations, $615 Million of Illegal or
      Otherwise Improper Adjustments,” July 2001

IG DoD
      IG DoD Report No. D-2003-133, “Controls Over DoD Closed Appropriations,”
      September 15, 2003




                                         12
Appendix B. Closed Appropriation Policy
           The policies in this Appendix were researched and published in IG DoD
           Report No. D-2003-133, “Controls Over DoD Closed Appropriations,”
           September 15, 2003. We inserted the policies into this report to assist the reader
           with fiscal processes.

           Use of Closed Appropriations. In 1990, Congress changed the law governing
           the use of appropriation accounts.1 Public Law 101-510, “National Defense
           Authorization Act for Fiscal Year 1991,” November 1990, amended Title 31,
           United States Code, sections 1551-1557 (31 U.S.C. 1551-1157). The act specifies
           that 5 years after the expiration of a fixed term appropriation, the appropriation is
           closed and all remaining balances canceled. After an appropriation is closed,
           agencies cannot use the appropriation account for obligations or expenditures for
           any purpose. Any collections authorized or required to be credited to an
           appropriation account, but not received before closing of the appropriation must
           be deposited with the U.S. Treasury as miscellaneous receipts. The following
           Figure describes the phases of an appropriation as provided in Public
           Law 101-510.

                                              Provisions of Public Law 101-510


                          Currently                                Expired                                 Closed
                           Available            unliquidated     Appropriation         unliquidated
                                                obligations                            obligations      Appropriation
                         Appropriation
                                                   and                                    and
                                                                     (5 years)
                                                unobligated                            unobligated
                        (number of years        balances                               balances
                           determined
                             by law




                      Available for new                        Available for                          Available for
                      obligations and                          disbursements to                       adjustments made to
                      disbursements to                         liquidate obligations                  reflect disbursements
                      liquidate obligations                    and for adjustments                    to liquidate
                      from closed accounts                     to obligations                         obligations




           After an appropriation closes, obligations and adjustments to obligations that
           would have been properly chargeable to the appropriation before closing may be
           charged to currently available appropriations subject to limitations specified by
           31 U.S.C. section 1553(b). The total amount of charges to a particular currently
           available appropriation may not exceed the least of:


1
    Appropriation accounts are sometimes called “appropriations” and sometimes they are called “accounts.”
    For consistency and understandability, we will use “appropriation” throughout this appendix.



                                                               13
                    •   the unexpended balance of the closed appropriation;

                    •   the unexpired unobligated balance of the currently available
                        appropriation; or

                    •   one percent of the total original amount appropriated to the current
                        appropriation being charged.

           Antideficiency Act. 31 U.S.C. 1341 (a) stipulates that an officer or employee of
           the Federal Government may not make or authorize an expenditure or obligation
           exceeding an amount available in an appropriation for that expenditure or
           obligation. The provisions of 31 U.S.C. 1554 extend this to include closed
           appropriations. 31 U.S.C. section 1351 states that if a Federal officer or employee
           does violate 31 U.S.C. section 1341(a), the head of the agency must report
           immediately to the President and Congress all relevant facts and a statement of
           action taken.

           Comptroller General Decisions. In 1993, the Comptroller General of the United
           States (Comptroller General) stated that the Department of the Treasury
           (Treasury), if presented with convincing evidence that a reporting error has
           occurred because of an obvious clerical mistake, might restore such balances to
           correct the mistake, subject to reasonable time limitations. The Comptroller
           General also stated that Treasury may record a disbursement from a closed
           appropriation as a payment, provided that the disbursement was made before the
           appropriation was closed. However, the Comptroller General clearly stated that
           he did not intend for closed appropriation adjustments to correct an agency’s
           accounting system deficiencies. In 1994, the Comptroller General stated that an
           agency “may not avoid adjusting an appropriation account and reporting any
           resulting ADA violation because (1) the appropriation has expired, (2) adjusting
           the appropriation will result in over obligations, or (3) the over obligations were
           unintentional.”

           DoD Financial Management Regulation. Volumes 3 and 6A of the FMR
           address policies and procedures for recording and accounting for closed
           appropriations.
           Memorandum of Agreement. On August 3, 2000, the Commissioner of the
           Financial Management Service of the Department of the Treasury, the DoD
           Deputy Chief Financial Officer, and the Deputy Commissioner of the Office of
           Management and Budget reached an agreement concerning controls over
           adjustments to closed appropriations. As part of the agreement, Treasury was to
           close all reopened DoD appropriations2 before the end of FY 2000 and establish a
           new appropriation to process all corrections to closed DoD appropriations when
           the correction is between a closed and an open appropriation. With the
           establishment of this new appropriation, Treasury was no longer responsible for
           tracking individual closed appropriation balances. DoD agreed to internally
           maintain proper closed appropriation(s) records to prevent ADA violations. Thus
           the responsibility for maintaining individual closed appropriation balances

2
    Appropriations that were closed by operation of law under Title 31, USC, sections 1552, 1553, or 1557
    and had been reopened to allow Treasury to process corrections between them and current appropriations.



                                                     14
transferred to DoD. DoD was to provide Treasury with a monthly report of
detailed transactions identifying both the open appropriation and the closed
appropriation to be charged or credited, and to maintain proper supporting
documentation. DoD agreed to document processing of adjustments to provide an
audit trail for the recording and reporting of corrections involving closed
appropriations.

Defense Finance and Accounting Service Responsibilities. The Defense
Finance and Accounting Service provides finance and accounting support for
DoD. Support includes processing adjustments to closed appropriations and
maintaining records of the unobligated and unliquidated balances of closed
appropriations. Three DFAS central accounting sites (DFAS Cleveland, DFAS
Denver, and DFAS Indianapolis) maintain the closed appropriation balances.
DFAS Indianapolis also reconciles to Treasury records all the adjustments that
central accounting sites make to closed appropriations.




                                   15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform



                                          16
Under Secretary of Defense (Comptroller)/ Chief
Financial Officer Comments




                      17
18
     Deleted




     Renumbered
     as
     Recommen-
     dation 1.a.




     Renumbered
     as
     Recommen-
     dation 1.b.




19
20
Department of the Air Force Comments




                     21
Defense Finance and Accounting Service
Comments




                      23
24
Team Members
The Defense Financial Auditing Service, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Paul J. Granetto
Richard B. Bird
Timothy A. Cole
